<L 4 -i

21-55? S

P III p 5

nfflllat
Supreme Court. U.S
FILED

IN THE

MAY 0 3 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE Cl FRir

RICHARD M

MILLER

. — PETITIONER

(Your Name)

vs.
STATE OF MARYLAND

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF SPECIAL APPEALS OF MARYLAND
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

RICHARD M. MILLER #354-608
(Your Name)

NORTH BRANCH CORRECTIONAL INSTITUTION
(Address)
14100 McMullen Highway S W
Cumberland, Maryland 21502
(City, State, Zip Code)
N/A

(Phone Number)

QUESTION(S) PRESENTED
Did 'Ihe Intermediate Appellate Court Of Special Appeals Of Maryland Err When
Denying Petitioner His Absolute Constitutional Right To An Appeal Or Belated
Appeal?
Did The Intermediate Appellate Court Of Special Appeals Err When Denying
Petitioner's Application For Leave To Appeal Without Explanation Preventing
Petitioner From Appealing His Case To The-Court Of Appeals Of Maryland On Writ
Of Certiorari?
Did The Post Conviction Court When Failing To Error On The Side Of Caution
Deny Petitioner His Constitutional Right TO An Appeal Or Belated Appeal?

LIST OF PARTIES
[X] All Parties Appear In Hie Caption Of The Case On The Cover Page.

i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.............. ................. ............
REASONS FOR GRANTING THE WRIT.....................
CONCLUSION

3
3 - 4
5
16

INDEX TO APPENDICES
APPENDIX A COURT OF SPECIAL. APPEALS OF MARYLAND UNPUBLISHED OPINION
' DATED MARCH 2lst 2021
APPENDIX B

PETITIONER'S. APPLICATION FOR LEAVE TO APPPEAL

APPENDIX C

POST CONVICTIOW COURT'S MEMORANDUM/ORDER

APPENDIX D

PETITIONER'S BIFURCATED PETITION FOR POST CONVICTION RELIEF

APPENDIX E

SIX EXHIBIT'S TO SUPPORT PETITIONER'S ARGUEMEN'I

APPENDIX F

ii

15

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Anders v California, 336 US 733 743 (1957)

5

Culyer v Sullivan 456 US at 343

o

Davis v, Alaska, 415 US 303 (1974)

6

Evitts v. Lucy, 469 US 337 33 (1935)

14

Floras-Ortega, 523 US 470 (2000)

13-14

Garrison v- State 284 Md 123 139 (1938)

9 & 11

Herring v. New York, 422 US 853 (1975)

5

. Jones v. Barnes, 453 US 745 751 (1933)

14

Peguero v. United States, 526 US 23 (1999)

13

Rodriquez v. United States, 395 US 327 23 (1969)

14

Sielaff v. Williams, 423 US 876 46 (1975)

6

State v- Flansburg, 345 Md 694 (1997)

11

State v. Mohoney, 16 Ml App 193 (1972)

10

State v- Shoemaker, 225 Md 639 (1960)

3,5 & 13

United States v Chronic, 456 US 643 (1934)

5

United States v Morrison, 449 US 361 364 (1981)

5

Williams v Twomey, 510 F2d 634 640 (Ca) sub norm

6

Wilson v- State 234 Md 664 571 (1979)

9

MARYLAND RULES & PROCEDURES
Rule 2-214(b)
19-30.1 1 Competence 11
19-301 2(c) (1 2)
19-306 2 (6 2)
Criminal Procedures 7-102 & 7-106(a)(l)

iii

10
6
7
7
9

“ITsITRE'
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
J or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1_to

[X] For cases from state courts: COURT OF SPECIAL APPEALS OF MARYLAND
The opinion of the highest state court to review the merits appears at
Appendix __A__to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
court
The opinion of the COURT OF SPEC,TAT. APPF.ATS Of MARYLAND
appears at Appendix ... A._ to the petition and is
; or,
[ ] reported at
[J has been designated for publication but is not yet reported; or,
[X] is unpublished.
1.

-JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was--------------------- :——-----[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of;
, and a copy of the
Appeals on the following date: —:------- ;------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No. .—_A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts: COURT OF SPECIAL APPEALS OF MARYLAND
The date on which the highest state court decided my case was 3-1-21 ,» '■
A copy of that decision appears at Appendix —A-----[ ] A timely petition for rehearing was thereafter denied on the following date:
______________ ;_______ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date) in
to and including------Application No. _—A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

iX!NSlIIMZ0NAL-AM)--SIAXim3R¥-P-RQ¥I-SIQNS^:-NVQLVEB
United States Constitution Amendment TVl]
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial by an impartial jury of the State and district wherein
the crime shall have been committed, which district shall have previously
accertained by law and to be informed of the nature and cause of the
accusation; to be confronted with the witness against; to have compulsory
process for obtaining witnesses in his favor and to have the Assistance of
Competent Counsel for his defense *
United States Constitution fAmendment fXIV]
Section (1) All persons born or naturalized in the United States and
subject to the jurisdiction thereof are citizens of the United States and of
the State wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any_ person life liberty or property without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the law...
STATEMENT OF CASE
•jr'v

1 Tgiai.- On November 3rd 2008, Petitioner .was tried by a jury with
the Honorable Teccence J McCann .presiding* On November Sth 2003
Petitioner was convicted of first degree sex offense attempted
kidnapping and first degree assault Petitioner was represented by
private-counsel Mi: Richard Basile.
2 Sentencing On December 17th 2008 the Honorable Terrence J
McCann imposed a sentenced of life for first degree sex offense 30
years for attempted kidnapping to run consecutive to count 1 and 25
years for first .degree assault to run consecutive to counts 1 & 2
for a total of life plus 55 years.
3 Appeal. Trial Counsel Basile (failed to file an appeal) On
January 16th 2009> Mir Basile filed an Application for Review of
Sentence by a Three Judge Panel On February 4th 2009 Mi: Basile
filed a Modification of Sentence.

3

4 Post Conylction_Proe,eeding_On__October:__26th__2015-,__
filed for post conviction relief arguing the claim trial counsel
failed to note an appeal. Sea Appendix (d) attached On April 1st
2016 r a hearing was held on the petition. Oh May 18th 2016, Judge
Greenberg denied the motion for post conviction relief and ruled
that any subsequent motion should be filed by counsel, and should
such a motion be filed by counsel Judge Greenberg would be willing
to reconsider bis ruling. On August 9th 2016 Petitioner filed a
motion to withdraw his petition which was granted by the court.
On October 26th 2016 Petitioner filed a conditional supplemental
petition for post conviction relief raising the issue trial counsel
failed to note an appeal* See Appendix (d). On November 3rd 2016,
Petitioner filed a bifurcated petition for post conviction relief
Both motions were denied without prejudice.
5, Post Conviction Proceeding. CX)ni ? December - XJp - 2018 ,- i through
appointed counsel Scott Whitney a Petition for Post Conviction
Relief was filed Petitioner being not satisfied with; the petition
because of the lack of case law, Petitioner filed his original
Bifurcated and 'Conditional Petition for Post 'Conviction Relief? See
Appendix (d) attached. On or about April 19th 2019, Petitioner filed
a Supplemental Petition for Post Conviction Relief to the Court.
6- Denial of Post Conviction Relief. On August 24th 2020, the
Circuit Court for Montgomery County Maryland, issued a memorandum
opinion denying relief, which the clerk docketed on August 27th
2020. See Appendix (c) attached, In its opinion the court concluded
that trial counsel was not ineffective and ills performance did not
fail below an objective standard of reasonableness under Strickland
v. Washington, 466 US 668 (1984).
7. Application For Leave To Appeal. On September 16 2020, Petitioner
filed an Application For Leave To Appeal to the Court Of Special
Appeals Of Maryland on the lower courts denial of post conviction
relief, Petitioner requested the C0SA to review four issues
d,e,f,and g claiming the lower court erred. See Appendix (b)
On March 1st 2021, The Court Of Special Appeals Of MAryland, in
an Unreported Opinion filed its opinion stating read considered and
denied % The courts action prevented Petitioner from filing a writ
of certiorari to the GOurt Of Appeals Of Maryland requesting review
of the lower courts err* See Appendix (a) attached-

4

REASON FOR GRANTING THIS WRIT OF CERTIORARI
Petitioner was denied his absolute right to an appeal and/or belated

i

appeal of errors made during his trial, where his trial counsel failed to file
an notice of appeal. The Intermediate Appellate Court Of Special Appeals
decision in its unpublished opinion filed March 1st 2021- in this case, was
made contrary to Md Law, Federal Law and well settled law of this Court
concerning a defendant's right to appeal after being convicted. The COSA
action prevented Petitioner from appealing the lower courts decision to the
Court Of Appeals Of Maryland

and forced petitioner to file an writ of

certiorari to the United States Supreme Court where only 1% of the cases are
selected to be heard each term.
Petitioner

asserts

that

he

is

guaranteed

by

the

United

States

.t.

Constiturion and Strickland V Washington, 466 US 668 (1984) , the right to
effective assistance of counsel

a counsel that will subject the prosecutions

case to a meaningful adversarial testing process. In United'States v Chronic,
466 US 648 (1984), in an opinion by Stevens J , states:
"The substance of the Constitution's guarantee of effective
assistance of counsel is illuminated, by reference to its underlying
purpose*
[T]ruth]?
Lord Eldon said, 'is best discovered by
powerful statements on both sides of the question.' This dictum
describes the unique strength of our system of criminal justice.
The very premise of our adversary system of criminal justice is
that partisan advocacy on both sides of the case will best promote
the ultimate objective that the guilty be convicted and the innocent
go free. ' Herring v New York. 422 US 853 862 45 LEd2d 593 SCt 2250
^
that ""very premise" that underlines and gives meaning
to the Sixth Amendment# It !is meant to assure fairness in the
adversary criminal process.'United States V Morrison, 449 US 361 364
66 LEd2d 564 101 SCt 665 (1981). Unless the accused receives the
effective assistance of counsel, "a serious risk of injustice
infects the trial itself." Cuyler v Sullivan, 466 US at 343.
Ihus, the adversarial process protected by the Sixth Amendment
requires that the accused have "counsel acting in the role of an
advocate,"
Anders V California, 386 US 738 743 18 LEd.2d 493 (1967)*
)
Ihe right to effective assistance of counsel is thus, the right of
the accused. to require the prosecution's case to survive the
5

crucible of meaningful adversarial testing. When a true adversarial
criminal trial has been conducted, even if defense counsel may have
made demonstrable errors the kind of testing envisioned by the Sixth
. Amendment has occurred. Rut if the process loses its character as a •
confrontation between adversaries, the constitutional guarantee is
violated. As Judge Wyanski has-written:
"While a criminal trial is not
are expected to enter the ring with
it a sacrifice or unarmed prisoners
rel, Williams v Twomey- 510 F. 2d
norm Sielaff V Williams, 423 US 876

a game in which the participants
near match in skills, neither is
to gladiators-" United States ex
634 640 (Ca7), cert; denied sub
46 LEd2d 109 96 SCt 148 (1975).

Petitioner asserts when .(his) trial counsel entirely fails to subject the
prosecution's case to a meaningful adversarial testing^ there has been a
denial of his Sixth Amendment rights that make the adversary process*- No
specific showing of prejudice was required in Davis V Alaska , 415 US 308
(1974). As trial counsel did in issue (f) failing to note an appeal- More
importantly issues (d),

(e), & (g) were appealable on direct appeal even

though trial counsel failed to object or preserve them;, under plain error
doctrine.
Petitioner further asserts that His trial counsel was not acting with
competence when he represented Petitioner on the above complained about issues
(d), (e), (f)j & (g). Chapter 300, Maryland's Attorney's Pules of Professional
Conduct. Md Rule 19-301.1 Competence (1.1), provides:
An attorney shall provide competent representation to a clientCompetent representation requires the legal knowledge, skill,
for
necessary
thoroughness
and
preparation
reasonably
representation The Strickland court as not to restrict the wide latitude* counsel must
have in making decisions. Strickland did not provide an all-inclusive list of
imperatives for defense attorney's; but did list the minimum duties that.are
required of counsel. (1) duty of loyalty; (2) a duty to advocate; (3) a duty
to consult with the accused in important decisions; (4) a duty to keep the
....ksM&mis

6

defendant informed of important developments;

(5) a duty to conduct a

reasonable investigation into the facts and law; and (6) a duty to posses
and execute enough skill and knowledge to ensure a fair trial- Id. at 688-90
The Court Of Appeals Of Maryland has held Federal and State constitutional
provisions are co-extentive

Lodowski V State

307 Md 233 247 513 A2d 299

(1986).
COMMENT
LEGAL KNOWLEDGE AND SKILL
[3] In an emergency an attorney may give advice or assistance in a
matter in which the attorney does not have the skill, ordinari y
required, where referral to or consultation or association wi
another attorney would be impractial Even in an emergency, however,
assistance should be limited to that reasonably necessary in t e
circumstances, for ill considered action under emergency conditions
can jeopardize the client s interest[4] An attorney may accept representation where the requisite lsv®
of competence can be achieved by reasonable preparation- This
applies as well to attorneys who is appointed as an attorney for an
unrepresented person- See also Md Rule 19-306*2 (6*2)THOROUGHNESS AND PREPARATION- [5] Competent handling of a particular
matter includes inquiry into and analysis of the factual and lega
elements of the problem, and use of methods and procedures meeting
the standards of competent practitioners- It also includes adequate
preparation. The required attention and preparation * determined.m
part by what is at stake.; major litigation and complex transaction
ordinarily require more extensive treatment than matters of lesser
complexity An agreement between attorneys and the client regarding
the scope of the representation may limit' the matters for which t e
attorney is responsible. See Md Rule 19-301 2(c)(T*2)
MAINTAINING COMPETENCE- [6] To maintain the requisite knowledge and
skill, an attorney should keep abreast of changes, in the law and its
practice, engaged in continuing study and education .and comply wi..
all continuing legal education requirements to which the attorney is
subject•

7

.

Petitioner asserts trial counsel rendered ineffective assiRfanr.P nf

counsels because of the above stated case law and Md. Rule in subjecting the
prosecutions case to a meaningful adversarial challenge, and failing to
prepare and maintain competence

concerning

the

complained

about

issues

(<0,(e),(f), and (g) found in Petitioner's Application;For Leave To Appeal. 'See
Appemdix (b) attached

(REASON FOR GRANTING THIS WRIT OF CERTIORARI CONTINUED)

(A)

Petitioner asserts his trial counsel was ineffective when he failed to

file a notice of appeal after being requested to do so on December 17th 2008.
Ihe Post Conviction Court and the Intermediate Appellate Court Of Special
Appeals Of Maryland both erred when denying Petitioner his absolute right to
an Appeal and/or Belated Appeal. In doing so both Courts ignored well settled
Md. Law and case law; Federal Criminal Law and well settled case law of the
United States Supreme Court* The Court Of Special Apeals

then blocked

Petitioner from having the lower courts decision reviewed by Marylands Highest
Court.
On December 17th 2008, the Honorable.Terrence J

McGann after sentencing

Petitioner explained the post-trial rights to Petitioner as being; 1) an
absolute right to appeal his sentence within 30 days; 2) 90 days to file a
motion for reconsideration of the sentence; and 3) 30 days to file for three
judge panel review and all three must be in writing. See Exhibit #1 under
Appendix (e) attached Before leaving the courtroom Petitioner requested trial
8

counsel to file an appeal and the other post-trial rights explained* However
trial counsel filed everything except the appeal

See Exhibit #5 under

. Appendix (e) attached
Petitioner laid-out in detail in his Bifurcated Petition for Post
Conviction Relief that contained the necessary case law that supports Post
Conviction Relief in the form of granting a Belated Appeal, See Appendix (D)
attached. Which was part of the Post Conviction Hearing Record and should have
been transmitted by the Clerk to the Court Of Special Appeals with all of the
other Application for Leave To Appeal document's. See Post Conviction Court
Memorandum and. Order at pgs 2-3 under Appendix (b) & (c) attached

Petitioner

provides the following in support of*.
Criminal Procedure Article § 7-102 provides that in post conviction
proceedings, a person may not begin a proceeding if allegations of error have
been waived or finally litigated.

Allegations are not finally litigated, until

they have been decided on the merits by (direct appeal) or application for
leave to appeal. Criminal Procedures § 7-106(a)(l) All allegations of error
that could have been raised, on direct appeal, whether or not Petitioner took
appeal, will be deemed, waived. Id at (b)(1) If Petitioner does not have the
opportunity to litigate issues cognizable in direct appeal via a belated
appeal >

those

issues will be considered waived, for purposes of post

conviction litigation.
The failure to honor Petitioner's request to note an appeal on his behalf
violated Petitioner s right to effective assistance of counsel, guaranteed by
the Sixth and. Fourteen Amendments of the United. States Constitution and
Maryland Declaration Of Rights. "Entitlements to assistance of counsel would
be hollow indeed unless the assistance were required to be effective. It
follows that a criminal defendant has the right to effective assistance of
9

counsel on the direct appeal of the judgement enter.ed_upon_Ms_c.om/jir-t--j-nn-a£-aserious crime," Wilson v State

284 Md. 664 671 (1979). In Maryland, a

defendant in a criminal case denied his right to a desired appeal through no
fault of his own, and who has been diligent in attempting to assert his appeal
rights, is entitled to a belated appeal, without the necessity of presenting
any other evidence of prejudice." Garrison V State, 350 Md. 128 139.(1988),
[Ajll criminal defendants who are convicted after a trial in circuit
court are entitled to an appeal of right to the Court of Special Appeals. See
Md, Code(2002) § 12-301 of the Court and Judicial Proceedings Article: (a
party may appeal from a final judgement of the circuit court in a civil or
criminal case). (See Exhibit #2 under Appendix (e) attached). The Public
Defender's Office, provides representation on, for indigent and incarcerated
defendant’s who have been convicted (after a trial, as opposed to a guilty
plea) in the circuit courts of Maryland. See Md, Rule Code(1997) Art. 27A §
4(b)(2)

(the Public Defender Act),

See (Exhibit #3 under Appendix (e)

attached).
The duties imposed by Md

Rule 4-214(b) and the Public Defender Act are .

also applicable to privately- retained attorneys. See. State V Mohoney

16 Md.

App. 193 (1972)(holding that duties imposed on appointed counsel by Md. Ruleregarding the filing of post-trial motions are imposed on privately retained
counsel's also). .
A defendant s

right to counsel, attaches early in the process of the

circuit court case, and trial counsel's duty of representation continues into
the post-verdict stage. For instance a defendant has the right to counsel for
the purposes of making a motion for new trial,, noting an appeal, and filing a
motion for- modification of sentence. See Md. Rule 4-214(b)(Exhibit #4, under
Appendix (e) attached). ( When counsel is appointed by the Public Defender or
10

by the court, representation extents to all stages in the proceedings.
including but not limited to custody, interrogations, preliminary hearings,
pretrial motions and hearings, trial, motions for modification or review of
sentence

or

new

trial j

and

appeal"1);

State

V

Flansburg^

345

Md

694(1997)(holding that duty of representation extended to the filing of a
motion for modification of sentence

and holding that counsel's failure to

file that motion may be addressed through the Post Conviction Procedure Act).
When a defendant request a direct appeal of right, but through no fault
of his own, he is denied that appeal, then he is entitled to a belated appeal*
State V Shoemaker

225 Md

639(1960); In Garrison, supra,(a defendant has the

right to a belated appeal when the defendant is denied, through no fault of
his own, the appeal that he desires and to which he is entitled)»
Moreover when trial counsel Basile neglected to file a notice of appeal
requested by Petitioner, the error also violated Petitioner's right to due
process. More importantly this error has significant ramifications, not only
was Petitioner deprived an essential guaranteed right. Petitioner is

also

deprived of filing a future Federal Habaes Corpus Petition, ( as one of the
requirements is to exhaust all state remedies % direct appeal, writ of
certiorari) post conviction) leave to appeal, and writ of certiorari). The
Post_ Conviction Court had, the opportunity to correct the error by trial
counsel Mr_ Basile^ and preserve Petitioner's due process rights to future
appeals by allowing Petitioner to file a belated appeal but refused to do so
ttte intermediate appellate Court Of Special Appeals of Maryland had the same
opportunity and refused to do so.
The Post Conviction Courts Reason for Denying Petitioner A
Belated Appeal

11

PC COURT:

At the Post Conviction Hearing

trial counsel testified that

sometime after sentencing, but within the 30-day timeframe to file an appeal,
he met with Petitioner to go into detail about Petitioner's post-trial rights.
Trial counsel testified that he recalls this conversation happening where the
Petitioner was incarcerated, sometime after Petitioner was sentenced becaused
this a long conversation that would not have been able to occur in the
courtroom directly after the sentencing hearing. Trial counsel testified that
during this lengthy conversation he told Petitioner that the real issue was
the severity of the sentence rather than Petitioner's guilt. Trial counsel
stated that based on the overwhelming evidence presented on Petitioner's
8P^tj it did not appear that there would be success if the case went to
appeal. Because of this, trial counsel advised Petitioner that it would not be
logical to file an appeal, and instead told. Petitioner that he should pursue a
three--judge review panel as it would be more likely lead to a_ reduction of
Petitioner's sentence.
(B).

Petitioner asserts as stated, the Court not his trial counsel explained

his post-trial rights, and his trial counsel after the trial sentencing
on December 17 th 2008, never came to explain anything. More importantly an
aPPeal is Petitioner's right, successful or not it is his right.- Period! As
this Petitioner wrote in his Bifurcated Petition as a result of trial
counsel s error in not filing an Appeal; Petitioner has lost the opportunity
to file any Federal appeals

i. e

(Federal Habeas Corpus, 4th Circuity US

Supreme Court). Ihe record, reveals trial counsel Basile did file a sentence
review and. a modification of sentence as Petitioner asked, at the sentencing
hearing but failed, to file an appeal as requested.
under Appendix (e) attached),

12

(See docket Exhibit #5

Trial counsel Basile was ineffective when he failed to file Petitioner's
appeal and trial counsel did not want to be exposed for the mistakes he made
that created the appealable issues below:
1) On November 3rd 2008, .during Petitioner's trial (trial counsel)
Basile objected to the State showing a surveillance video room Polio
Campero's to the jury that had not been properly authenicated* The
video was shown over counsels objection and he failed to preserve
the issue for appellate review, so it was deemed waived.
2) Each of the issues found in Petitioner's Application for Leave To
Appeal were appealable issues in Maryland: (1) failure to request
lesser included offense issue (d); (2) failure to object to
unwarranted, flight instruction issue (e); and (3) failure to object
to (two) improperly worded voir dire questions that permitted
prospective jurors to self asses whether they could be fair and
impartial. See (AFLTA under Appendix (b) attached).
More importantly each of these issues have been raised on appeal in the
Court of Special Appeals and Court of. Appeals, with relief granted.at one time
or another.
The United States Supreme Court in Peguero V United States, 526 US 23
(1999) held (When counsel fails to" file a(requested appeal, a defendant is
entitled to [a new] appeal without showing that, his appeal would likely have
had merit.).

In Flores-Ortega, 528 US 470 (2000) the Supreme Court held:

[la] In Strickland V Washington. 466 US 668 80 LEd 2d 674 104 . ‘SCt
(1984), we held that criminal defendants have a Sixth Amendment
right to "reasonably effective" legal;assistance, id.j at 687 80 LEd.
2d 674 104 SCt 2052, and. announced a now-familiar test: A defendant
claiming

ineffective assistance of counsel must show (1) that,

counsel's representation
reasonableness,"

"fell below an objective
[528 US. 477]

13

standard of

.

id.j at 688 80 LEd 2d 674 SCt 2052, and (2) that counsel's deficient
performance Prejudiced the defendant. id7> at 694 80 LEd. 2d 674—104
SCt 2052, Today we hold that this test applies to claims likerespondent* s that counsel was constitutionally ineffective for
failing to file a notice of appeal.
The

Court in Flores-Ortega further stated; we have long1 held that a

laywer who disregards specific instructions from the defendant to file a
notice of appeal acts in a manner that is professionally unreasonable* See
Rodriquez V United States, 395 US 327 23 LEd 2d 340 89 SCt 1715 (1969)- This
is so because a defendant who instructs his counsel^ to initiate an appeal
reasonably relies upon counsel to file the necessary notice. Counsel* s failure
to £^2. so cannot be considered a. strategic decision; filing a. notice of appeal
is. a. pur ley ministerial task

and the failure to file reflects inattention tQ.

the defendants wishes ,

In Jones V Barnes, 463 US 745 751 77 LEd 2d 987 103

SCt 3308 (1983) held;

(

the accused has the ultimate authority to make

fundamental decision whether to take an appeal)*
The Rodrigues, Court further heldt

that the defendant by instructing

counsel to perfect an appeal^ objectively indicated, his intent to appeal and
was entitled to [a new appeal] without any further showing. Because "[t]hose
whose right to an appeal has been frustrated should be treated exactly like
any other appellantt],11 we reject any requirement that the would-be appellant
'‘specify the points he would raise were his right to appeal reinstated*

Id *>.

at 330 23 LEd 2d 340 89 SCt 17.15* See also Evitts V Lucy, 469 US 387 83 LEd 2d
821 105 SCt 830

(1985) (defendant entitled to new appeal when counsel s

deficient

to comply with mechanistic local court rules led to

failure

dismissal of first appeal)*
.... ...Moreover this Court has concluded that it is unfair to require an

14

indigent perhaps pro-se., defendant to demonstrate that his hypothetical appeal
might have had merit before any advocate has ever reviewed the record in his
g;ase la search of potentially meritorious grounds for appeal, .. Rather

we

require the defendant to demonstrate that but for counsel's deficient conduct
he would have appealed»
Petitioner asserts in-order for trial counsel Basile to have effectively
explained the appealable issues to Petitioner as the Post Conviction Court
wrote in its Memorandum/Opinion* id. at page 13 paragraph (2). See(PC OP
under Appendix (c) attached).

Trial counsel Basile would have had to purchase

and read the actual trial transcript. Which he did. not do since Petitioner's
family members had informed him prior to sentencing they would not be
retaining him to litigate Petitioner's appeal. The Court of Special Appeals
was informed of this fact in Petitioner s Application for Leave to Appeal, id
at page

(15) paragraph (3)

See (Appendix B Attached.)

Which further

supports Petitioner s written version of events documented herein that trial
counsel Basile:
failed to file a notice of appeal in this case because trial counsel
did not want to be exposed as being inefffective. because of the
mistakes (he) made that created the appealable issues documented
herein at page (4) paragraph one.. .
The evidence presented herein supports

the Court Of Special Appeals Of

Maryland and the Post Conviction Court both erred, when disregarding and/or
misinterpreting well settled Law and. well settled case law* When both Court' s
denied. Petitioner his absolute constitutional right to an appeal and/or
belated appeal in this case...

15

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

August 25th 2021

16

